U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 13, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Hannah P. v. Joseph Maguire, Acting Director of the Director of National
Intelligence, S.Ct No. 19-549

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 23,
2019, and placed on the docket on October 29, 2019. The government's response is due on
November 29, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 30, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0549
HANNAH P.
JOSEPH MAGUIRE, ACTING DIR. OF THE DIR. OF
NATIONAL INTELLIGENCE

TIMOTH BOSSON
BOSSON LEGAL GROUP, PC
823 SOUTHK1NG STREET
LEESBURG, VA 20175
DANIEL R. ORTIZ
UNIVERSITY OF VIRGINIA SCHOOL OF LAW
SUPREME COURT LITIGATION CLINIC
580 MASSIE RD.
CHARLOTTESVILLE, VA 22903
434-924-3127
DORTIZ@LAW.VIRGINIA.EDU
MARK T. STANCIL
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K STREET, NW
WASHINGTON, DC 20006
202-775-4500
MSTANCIL@ROBB1NSRUSSELL.COM

